. E E 9 '(]

J,

O'

r.U '

\)y

No.
Supreme Court, U.S.
FILED

AUG 1 1 2029
IN THE

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES

MICHAEL WILLIAMSON

— PETITIONER

(Your Name)
vs.
HAROLD MAY

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES SIXTH CIRCUIT COURT OF APPEALS» DENIAL OF C.O.A.
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Michael Williamson

(Your Name)
Richland Qxracticnal List.. 1Q0 1.Qliv^ixgq M.

(Address)
ffensfield OH 44901

(City, State, Zip Code)
t j|fl kftriuA_____

(Phone Number)

QUESTION(S) PRESENTED

1) Was Michael Williamson afforded a fair trial and right to confront his
accusers or right to witnesses in his favor when the trial court excluded
logan Blakely and Michael Williamson Jr. as witnesses after admitting
prejudicial out of court hearsay statements from Sally Weindorf? California
v. Green, 399 U.S. 149; In re Murchison. 349 U.S. 133.

2) Was Michael Williamson afforded a fair trial and right to witnesses in
his favor when the trial court excluded the admitted offender, Mark
Neiswonger, from testifying at trial? Washington v. Texas, 388 U.S. 14,
19 (1967); Chambers v. Mississippi, 420 U.S. 284, 302 (1973); Brady v.
Maryland. 373 U.S. 83; In re Murchison, 349 U.S. 133.

3) Did the carbon-copy, duplicious 12 count indictment deny Michael Williamson
a fair trial and protection from double jeopardy? And does the rtenial
of the district and circuit courts' conflict with Valentine y. Ronteh,
395 F. 3d 626 (6th Cir. 2005)?

4 f

-n -

LIST OF PARTIES

[X. All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS
PAGES

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3,3(a)

STATEMENT OF THE CASE

4-5

REASONS FOR GRANTING THE WRIT

6-11

CONCLUSION

12

INDEX TO APPENDICES

APPENDIX - A United States Court of Appeals for the Sixth Circuit ORDER

APPENDIX - B United States District Courts Memorandum Opinion and ORDER

TABLE OF AirTHORITIKS CITED
PAGE NUMBERS

CASES
Brady v. Maryland, 373 U.S. 83 (1963)
California v. Green, 399 U.S. 199

ii,9
ii,6

Chambers v. Mississippi, 420 U.S. 284, 302 (1973)
Crawford v. Washington, 541 U.S. 36
Giglio v. U.S. 405 U.S. 150

ii
6
9
9

Herrera v. Collins, 506 U.S. 390, 400 (1993)
In re Murchison, 349 U.S. 136
Strickland v. Washington, 446 U.S. 668
Valentine v. Konteh, 395 F. 3d 626 (6th Cir. 2005)
U.S. v. Clark, 988 F. 2d 1459, 1467 (6th Cir. 1993)

ii,11
11
ii, 11
9
9

U.S. v. Bagley, 473 U.S. 667
STATUTES AND RULES
Ohio Revised Code 2907.02

•••

4

U.S.C. § 2254

•••

3

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[X] For cases from federal courts:

to

The opinion of the United States court of appeals appears at Appendix_h.
the petition and is
[X] reported at Willianryrn v. ifev. 2020 u.s. AroJBCDS 21604
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[X] reported at WillianBcn v. ftfay, 2020 u.s. Dist. ifXES 27216
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
i or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
♦

pq For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was July 10, 2020
[X] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
in Application No.
A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
---------------------------------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

-2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

PAGE
Constitutional Provisions (in relevant part)
Fifth Amendment: No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a presentment of indict­
ment of a Grand Jury
nor shall any person be subject for the
same offense to be twice put in jeopardy of life or limb; • • • t
nor be deprived of life, liberty, or property, without due pro­
cess of law;
Sixth Amendment: In all criminal prosecutions, the accused shall
enjoy the right to a spedy and public trial, by an impartial
jury of the State and district wherein the crime shall have been
committed, which district shall have been ascertained by law,
and to be informed of the nature and cause of the accusation; to
be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense;

•••

•••

passim

passim

Fourteenth Amendment: All persons bom or naturalized in the
United States, and subject .to the jurisdiction thereof, are
citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall,
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of
life, liberty, or property without due process of law; nor
deny to any person within its jurisdiction the equal pro­
tection of the laws.

passim

State Statutory Provision: Appendix A

i

O.R.C. 2953.21
O.R.C. 2953.75 (B)
O.R.C. 2953.74 (C) (4)

... 4
• • • 13
• • • 13,14

O.R.C. 2953.74 (C) (1)
Ohio App. R. 26 (B)

•••
•••

-3-

14>*f
11

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED (con't)

PAGE
State Statutory Provisions: Appendix

B

O.R.C. 2953. 74
Ohio App. R. 26 (B)

•••

26,27
21

•••

1,6,11,12,14

•••

Federal Statutory Provisions: Appendix A
28 U.S.C. 2254
28 U.S.C. 2253 (c) (2)

•••

S 6

Federal Statutory Provisions: Appendix B
28 U.S.C. 2254

1,4,11,22

28 U.S.C. 636

3,4

28 U.S.C. 2244
28 U.S.C. 2242
28 U.S.C. 2253
Frd. R. App P. 22 (b)
Fed. R. Civ. P. 15 (b) (1)

12
25

Fed. R. Civ. P. 72 (b) (3)

30
30
25
4

Fed. Loc. R. 72 (b) (2)

1

*

-3(a)-

STATEMENT OF THE CASE

On April 20, 2000, Michael Williamson was arrested for the alleged rape of
his step-daughter, Larissa Bakley. Police seized numerous items from Williamson's
household, claiming his semen to be on the items per the statement of the step­
daughter. Williamson, confused and shocked by the events, proclaimed his innocence.
On May 7, 2000 the Grand Jury of Cuyahoga County, Ohio, indicted Williamson
on 12 carbon-copy, duplicious counts of rape, O.R.C. 2907.02, with the specifica­
tion that the alleged victim was under 13 years of age. Williamson plead not
guilty to all counts and was subsequently released on a 10% of $15,000 dollar
bond.J
Pending trial, numerous events occurred that pointed to Williamson's actual
innocence. All bedding and clothing confiscated by the State tested negative for
Williamson's DNA. However, when this little inconvenience for the State arose the
State claimed Williamson had transmitted clamydia to his step-daughter - the step­
daughter was then treated with clamydis medication. Upon being informed of this
alleged development, Williamson was ordered by the trial judge to submit to the
excruciatingly painful STD test at a lab appointed by the Court. Williamson tested
negative for any sexually transmitted disease. After this stick was thrown in the
State's spokes the State then claimed that the step-daughter merely had a yeast
infection and was misdiagnosed - it is unfortunate, however, that it was never
established whether or not clamydia medication also cure yeast infections (please,
also, keep this in mind as the State then switched their case to only felatio).
Additionally, it became known that the step-daiighter recanted her accusations to
her younger siblings, Logan Blakely and Michael Williamson Jr. .
A couple of pretrial hearings subsequently took place. At one inparticular,
the trial court guarenteed Williamson that if he pled guilty, even to multiple
-4-

counts, the court would impose no more than seven years, concurrent. Being inn­
ocent, Williamson rejected the State's and the court's offer. Williamson's trial
began on December 17, 2001.
At trial the State presented several hearsay witnesses, non£of which submitted
consistent testimony to the alleged events or physical evidence that should have
existed. The State also called Larissa Blakely to testify to her alleged victimi­
zation.
The defense likewise called several witnesses to rebut the State. Three
witnesses for the defense were excluded by the trial court, Logan Blakely and
Michael Williamson Jr. - whom Larissa Blakely recanted to - and Mark Neiswonger
whom confessed under oath to the alleged rapes, and whcm admitted to coercing
Larissa Blakely into accusing Williamson in order to "get rid of him," as Larissa
Blakely did not like her step-father.
On December 21, 2001, the jury returned a verdict of guilty on all counts.
On January 29, 2002, the trial court imposed a sentence of 12 consecutive life
terms. An extensive procedural history on appeals proceeded, all of which may
be found in Append!^ - A and B.

-5-

counts, the court would impose no more than seven years, concurrent. Being inn­
ocent, Williamson rejected the State's and the court's offer. Williamson's trial
began on December 17, 2001.
At trial the State presented several hearsay witnesses, none of which submitted
consistent testimony to the alleged events or physical evidence that should have
existed. The State also called Larissa Blakely to testify to her alleged victimi­
zation.
The defense likewise called several witnesses to rebut the State. Three
witnesses for the defense were excluded by the trial court, Logan Blakely and
Michael Williamson Jr. - whom Larissa Blakely recanted to - and Mark Neiswonger
whom confessed under oath to the alleged rapes, and whom admitted to coercing
Larissa Blakely into accusingg Williamson in order to "get rid of him," as Larissa
Blakely did not like her step-father.
On December 21, 2001, the jury returned a verdict of guilty on all counts.
On January 29, 2002, the trial court imposed a sentence of 12 consecutive life
terms. An extensive procedural history on appeals proceeded, all of which may
be found in Appendix - A and B.

-5-

REASONS Em GRANTING THE PETITION
As To The First Question Presented
"The right to compel a witness' presence in the courtroom could not protect
the integrity of the adversary process if it did not embrace the right to have
witness' testimony heard by the trier of fact. The right to offer testimony
is thus grounded in the Sixth Amendment even though it is not expressly de­
scribed in so many words: The right to offer testimony of witnesses, and to
compel their attendance, if necessary, is in plain terms the right to present
a defense, the right to present the defendant's version of the facts as well
as the prosecution's to the jury so it may decide where the truth lies. Just
as an accused has the right to confront the prosecutions witness for the purpose
of challenging their testimony, he has the right to present his own witnesses
to establish a defense. This right is a fundamental element of due process
of law." Washington v. Texas, 388 U.S. 14, 19 (1967); accord, Crawford v.
Washington, 541, U.S. 36; California v. Green, 399 U.S. 149 (The court concluded
that because the declarant was testifying as a witness and subject to full
and effective cross-examination, admitting his out-of-court statement did not
violate the Sixth Amendment).
As with the Neiswonger affair, the trial court consistently would not
allow a defense witness to testify that the prosecution couldn't demean their
credibility, hence the exclusion of Logan Blakely and Williamson Jr • • Where
Sally Weindorff repeatedly made hearsay statements as to alleged physical abuse
within the home, Blakely and Williamson Jr. very well would have given testi­
mony contrary to Weindorff's testimony. Just as Rachell Williamson's testimony
did, and as all defense witnesses did, which is why after an unrecorded
in chambers meeting with these boys, the trial court deemed their defense testi­
mony "irrelevant." How convenient? One can only speculate how fatal to the
prosecution it would have been for the two boys to further testify that the
'i j —6^-

statements; Sally Weiridorff testified about were false. Sure, the government
can make their case, as they did, by attacking the credibility of adult witnesses who denied making the

statements Sally Weindorff said those wit­

nesses made. But, for the prosecution to be forced to attack the credibility
of Larissa Blakely's siblings would have proven fatal to the prosecution
and trial court's pre-determined and intended result of guilt.
The principles of the confrontation clause and fundamental fairness
exclude hearsay for this very reason. To admit statements to condemn, but
exclude those that exonerate spits in the face of the constitution and expose
the futile sham of our trials in this country.

An alleged victims accusation

made to another person should be treated no differently than the alleged
victim's recantation to another person.
The conclusion by judge Manos and adopted by judge Helmich and McKeague
that " • • • the trial court's refusal to permit Williamson to call the victim's
brothers to testify did not violate Williamsons rights under the Confrantation Clause because trial counsel intended to call the brothers as witnesses
in order to impeach the victims credibility, not to confront them about any
statements they made" (Doc.#: 46, p. 16), is a completely unfounded conclusion
that is unsupported by the record. And, assuming, arguendo, that this spe­
culative conclusion was correct (which it's not), even if a partial purpose
was to impeach the alleged victim it would be the duty of the prosecution
to raise proper objections to the impeachment and not for the habeas court
to protect the State on what it perceives the testimony's purpose was. The
constitution is to protect the defendant, not the government.
Further, judge McKeague asserts that the testimony of Teresa Williamson
and Racheal Williamson, Williamson's [cousin]y about acts of alleged domestic
violence does not support a violation of the confrontation clause because these

-7-

accusations support Weindorff's submitted hearsay. However, this finding is
in error due to the fact that these allegations were from isolated incidentssuch that every person has-and not a pattern of familial abuse perpetrated by
Williamson as the admitted hearsay sought to establish. In fact, Rachell
Williamson and Teresa Williamson denied any allegations of on-going domestic
abuse by Williamson as Weindorff testified to.
•Judge McKeague's adoption of Judge Manos and Helmick's findings fail ■ based
on the opinion that "Williamson failed to show he was denied due process because
he could not show the 'challenged' statements were improperly admitted or were
'irrelevant' to the main issues in the case." This is because 1) Weindorff's
hearsay statements were never "challenged" by Logan Blakely or Williamson Jr.s
testimony. This finding lacks any factual basis. And, 2) the question of
Weindorff's testimony was not of "irrlelvance" but its relevance to the issue
of force by on-going parental abuse which could not be challenged by the exclu­
sion of Logan Blakely and Williamson Jr.'s testimony, the evidence was pre­
judicial, and the outcome determinativeness of the element of force was not
established in compliance with due process.
Judge Helmick and McKeague did not assess the prejudice inherent in the
denial of confrontation to the testimonial out-of-court statements of Logan
Blakely and Williamson Jr.'s testimony, nor the benefit of having witnesses
in one's favor. The foundational protections guarenteed by the 6th and 14th
Amendments have never been so manifestly violated as to create a mockery of
justice than in this case. Upholding such trials extends tyranny beyond the
scope of a single man, but shall spread like wild fire upon the tinder of
draughted lands.

-8-

As To The Second Question Presented
I.

There has consistently been a grossly manipulated factual basis adopted

by the Court's pertaining to the Neiswonger confession, most recently being
judge Helmick's finding that "[t]he most Neiswonger might have been able to
say was that he never witnessed}Williamson assault tlie victim." Doc.#: 46,
p. 18. Although such testimony would likely have been adduced, as the trial
transcripts and written confession reveal there would have been much more
evidence sufficient to create reasonable doubt as to Williamson's alleged guilt
had Neiswonger's testimony not been arbitrarily excluded. Neiswonger would
have more likely than not exonerated Williamson. Williamson's convictions are
against the dicates of the constitutional due process guarentee of a fair and
just trial. A jury was best suited to handle the Neiswonger confession as the
trier of fact. Herrera v. Collins, 506 U.S. 390, 400 (1993).
II.

The problem that Brady poses is its perceived limitations requiring dis­

closure of favorable evidence being confined only to the government's factual
representative? i.e • t a prosecutor, when convenient. However, if an undisclosed
document is sitting in the desk of a cop, that is favorable to a defendant,
and later discovered, that document is Brady material because an agent of the
government had control over the document. Judge Daniel Gaul, a government em­
ployee and elected official, had control over Neiswonger, suppressed from the
jury testimonial evidence he knew would undermine the validity of a guilty
verdict or result in a hung jury, and more likely than not would have resulted
in Williamson's acquittal. The testimony of Neiswonger would have been so
clearly supportive of Williamson's innocence that no jury would have convicted
him. P.S. v. Clark, 988 F. 2d 1459, 1467 (6th Cir. 1993); U.S. v. Bagley, 473
U.S. 667; and Giglio v. U.S • f 405 U.S. 150. This Court is asked to extend Brady
v. Maryland, 373 U.S. 83 (1963) to trial judges who unconstitutionally exclude
-9-

favorable evidence that is outcome determinative when that judge controls the
evidence as judges are public employees in service of the government.
III.

Trial transcript pages 736-751 demonstrates the arbitrary and vile pro-

secutorial stance the now self recused judge Daniel Gaul held during the trial
against Williamson. It is clear from the face of these documents that if you
are a defendant in Gaul's courtroom, and you present witnesses that oppose
the State's case, or if a witness comes forward to tell the jury that the wrong
man is going to go to prison, then judge Gaul will accuse you and your tenured,
well-respected defense counsel of manipulating the tribunal and threaten every­
one with imprisonment.
It is also clear that if you're a defense attorney that believes in your
clients innocence, judge Gaul will belittle and admonish you like a child during
the course of discussion, presenting himself as a sort of God:
The Court: Just a minute, John. When I talk I want you to
remain silent. I don't want your speeches. I've heard
enough speeches from you on this case to last a lifetime.
Okay?
Judge Gaul's vile attitude didn't stop there. After intimidating defense
counsel Gill to the point of withdrawing Neiswonger as a witness, Mr. Gill
politely states and judge Gaul responds:
Mr. Gill: Your honor, in talking it over with Michael an
understanding of the position, he says it would be all
right to withdraw him as a witness.
The Court: Oh, Michael is controlling the proceedings
then? (tr. 749).
Williamson contends, as the record reflects, that at no point during the
discussion from tr, 736-751, regarding Neiswonger, did Williamson ever confer
with counsel about withdrawing Neiswonger as a witness. Counsel Gill was simply
shaken to his core by judge Gaul's threats and so scared that Williamson's
-10J-

o

acquittal would result in himself never "breathing another day of fresh air"
(tr. 751) that counsel Gill withdrew Neiswonger. If this honorable Court reviews
this issue it will find that the impeachment on a collateral matter, which
is the holding based on state evidentiary rules, fails. And that the exclusion
of Neiswonger's proported testimony was solely based on the misconduct of the
trial judge who intimidated defense counsel Gill into withdrawing an excul­
patory witness that is violative of the due process right to a fair and impar­
tial tribunal and the effective assistance of counsel as set forth in the
standards in In re Murchison, 349 U.S. 136 and Strickland v. Washington, 446
U.S. 668.
As To The Third Question Presented
In the context of carbon-copy indictments, Williamson's and Michael
Valentine's, in Valentine v. Konteh, 395 F. 3d 626 (6th Cir. 2005), couldn't
mirror each other any better. In fact, these indictments were both out of
Cuyahoga County, Ohio and issued by the same prosecutor, and present all the
same constitutional questions Valentine did. That is, are indistinguishable
carbon-copy, duplicious indictments constitutional? The district Court and
the Sixth Circuit Courts' have both said, "no", however, this constitutional
protection is being denied to Williamson.
Although Williamson submits that there was no evidence to convict him
of a single count of rape, there certainly wasn't enough information, testimony,
or diliniation to satisfy the additional 11 counts short of an estimation of
"40 times," that Valentine also condemns. The issue of a carbon-copy, duplicious
indictment is the same and therefore, the same relief should have been granted
to Williamson. The decision to deny Williamson's claim directly conflicts with
the Sixth Circuits own holding in Valentine.

?
-11-

]

CONCLUSION
The reasons to compel this writ of certiorari are manifest. Williamson
was denied the right to a fair trial by any sense of the term. To exclude
the admitted offender of these acts who admitted also to conspiring with
Larissa Blakely to get Williamson removed from the house is, in short, the
denial of a defense and creation of reasonable doubt. To admit prejudicial
hearsay and then deny the right to question the declarent is, in short, the
denial of the right to confront the witnesses against him and the right to
have witnesses in his favor. And to disregard multiplicious, duplicious,
carbon-copy indictments contrary to prior holdings in the same circuit only
adds insult to the injurous denials of constitutional protections intended
to ensure truth in justice.
Pursuant to the provisions of Supreme Court Rule 10, Williamson prays
the Court exercise its discretion and grant the foregoing writ.

The petition for a writ of certiorari should be granted.

Respectfully submitted,

4.

Michael Williamson

Date: August 11, 2020

-IP

